  Additional Information and Copies

  To obtain additional copies of this audit report, contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932 or visit the Inspector
  General, DoD, Home Page at: www.dodig.osd.mil.


  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  FAX (703) 604-8932. Ideas and requests can also be mailed to:

                     OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                     400 Army Navy Drive (Room 801)
                     Arlington, VA 22202-2884


  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

AAA                  Army Audit Agency
GAO                  General Accounting Office
                           Office of the Inspector General, DoD
Report No. D-2000-087                                               February 14, 2000
  (Project No. 0FI-2116)

      Inspector General, DoD, Oversight of the Army Audit Agency
                   Audit of the Army’s General Fund
           Principal Financial Statements for Fiscal Year 1999

                                  Executive Summary

Introduction. An audit of the Army General Fund financial statements is required by
Public Law 101-576, the “Chief Financial Officers Act of 1990,” November 15, 1990, as
amended by Public Law 103-356, the “Federal Financial Management Act of 1994,”
October 13, 1994. We delegated the audit of the FY 1999 Army General Fund financial
statements to the Army Audit Agency. This report provides our endorsement of the Army
Audit Agency disclaimer of opinion on the FY 1999 Army General Fund financial
statements, along with the Army Audit Agency report, “Army’s General Fund Principal
Financial Statements for Fiscal Year 1999: Summary Audit Report.”

Audit Objective. Our objective was to determine the accuracy and completeness of the
Army Audit Agency audit of the FY 1999 Army General Fund financial statements. See
Appendix A for a discussion of the audit process.

Audit Results. The Army Audit Agency report, “Army’s General Fund Principal
Financial Statements for Fiscal Year 1999: Summary Audit Report,” February 9, 2000,
stated that the Army Audit Agency could not express an opinion on the FY 1999 Army
General Fund financial statements. We concur with the Army Audit Agency disclaimer
of opinion; our endorsement of that disclaimer is Exhibit 1.

Internal Control Structure and Compliance With Laws and Regulations. The Army
Audit Agency issued reports on internal controls and compliance with laws and
regulations in the Army. The reports are in the Army Audit Agency report at Exhibit 2.
Table of Contents


Executive Summary                                                        i

Appendixes
     A. Audit Process
        Scope and Methodology                                            1
        Summary of Prior Coverage                                        3
     B. Report Distribution                                              4

Exhibits
     Exhibit 1.   Inspector General, DoD, Endorsement Memorandum
     Exhibit 2.   Army Audit Agency Report, “Army’s General Fund
                  Principal Financial Statements for Fiscal Year 1999:
                  Summary Audit Report”
Appendix A. Audit Process

Scope and Methodology
    Audit Work Performed. To fulfill our responsibilities under Public Law
    101-576, the “Chief Financial Officers Act of 1990,” November 15, 1990, as
    amended by Public Law 103-356, the “Federal Financial Management Act of
    1994,” we performed oversight of the independent audit conducted by the Army
    Audit Agency (AAA) of the FY 1999 Army General Fund financial statements.
    Our purpose was to determine whether we could rely on the AAA audit. We
    reviewed the AAA audit approach and planning and monitored audit progress at
    the key points.

            Reviewing the AAA Audit Approach. We used the “Federal Financial
    Statements Audit Manual,” January 1993, issued by the President’s Council on
    Integrity and Efficiency, and the “Financial Audit Manual,” December 1997,
    issued by the General Accounting Office (GAO), as the criteria for reviewing the
    AAA audit approach. Specifically, we reviewed the engagement letter,
    participated in the entrance conference, assisted in formulating the audit strategy,
    and commented on audit plans and programs. We also participated in audit
    planning and working group meetings coordinated by the GAO; the Inspector
    General, DoD; and the AAA.

            Monitoring Audit Progress. Through the DoD Financial Statement
    Audit Executive Steering Committee, we provided a forum for a centrally
    managed exchange of guidance and information leading to a focused DoD-wide
    audit of the DoD Agency-Wide financial statements, including the supporting
    financial statements of major DoD Components. We participated in audit working
    groups on significant topics in financial reporting for the Army General Fund. For
    example, we participated in the audit working groups for DoD-Wide Real
    Property, Fund Balance With Treasury, Statement of Budgetary Resources, and
    Munitions. We also participated in the audit working group for Army Equipment.
    We reviewed and commented on related draft audit reports issued by the AAA,
    including the opinion report and the report on the evaluation of internal controls
    and compliance with laws and regulations. In addition to these oversight
    procedures, we performed other procedures necessary to determine the fairness
    and accuracy of the AAA audit approach and conclusions. For example, we co-
    performed audit work with the AAA on controls over the Fund Balance With
    Treasury, verification of beginning appropriation fund balances for the Statement
    of Budgetary Resources, the Army compliance with the Anti-Deficiency Act, and
    compilation of the Army General Fund financial statements at the DFAS
    Indianapolis Center, Indianapolis, Indiana. We also used the results of GAO
    reviews of AAA audit work to increase our understanding and provide meaningful
    input to the AAA.




                                          1
DoD-Wide Corporate-Level Government Performance and Results Act
Goals. In response to the Government Performance and Results Act, the
Secretary of Defense established 2 DoD-wide corporate-level goals, 8 subordinate
performance goals, and performance measures. This report pertains to
achievement of the following goal, subordinate performance goal, and
performance measures:

       •   FY 2001 Corporate-Level Goal 2: Prepare now for an uncertain
           future by pursuing a focused modernization effort that maintains U.S.
           qualitative superiority in key warfighting capabilities. Transform the
           force by exploiting the Revolution in Military Affairs, and reengineer
           the Department to achieve a 21st century infrastructure. (01-DoD-2)

       •   FY 2001 Subordinate Performance Goal 2.5: Improve DoD
           financial and information management. (01-DoD-2.5)

       •   FY 2001 Performance Measure 2.5.1: Reduce the number of
           noncompliant accounting and financial systems. (01-DoD-2.5.1)

       •   FY 2001 Performance Measure 2.5.2: Achieve unqualified opinions
           on financial statements. (01-DoD-2.5.2)

DoD Functional Area Reform Goals. Most major DoD functional areas have
also established performance improvement reform objective and goal. This report
pertains to achievement of the following functional area objective and goal.

       •   Financial Management Area. Objective: Strengthen internal
           controls. Goal: Improve compliance with the Federal Managers’
           Financial Integrity Act. (FM-5.3)

General Accounting Office High-Risk Area. The General Accounting Office
has identified several high-risk areas in the DoD. This report provides coverage of
the Defense Financial Management high-risk area.

Audit Type, Period, and Standards. We performed this financial statement
audit from February 2, 1999, to February 14, 2000, in accordance with auditing
standards issued by the Comptroller General of the United States, as implemented
by the Inspector General, DoD. We did not use computer-processed data or
statistical sampling procedures to conduct this audit.

Contacts During the Audit. We visited individuals and organizations in the
DoD audit and accounting communities. Further details are available upon
request.




                                     2
Summary of Prior Audit Coverage
    The General Accounting Office and the Inspector General, DoD, have conducted
    multiple reviews related to oversight of financial statement audits. General
    Accounting Office reports can be accessed on the Internet at http://www.gao.gov.
    Inspector General, DoD, reports can be accessed on the Internet at
    http://www.dodig.osd.mil.




                                        3
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
   Deputy Comptroller (Program/Budget)
   Deputy Chief Financial Officer
      Director for Accounting Policy
Director, Defense Logistics Studies Information Exchange

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Finance and Accounting Service
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency

Non-Defense Federal Organizations
Office of Management and Budget
General Accounting Office
  National Security and International Affairs Division Technical Information Center




                                             4
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member

Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Forces
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform




                                            5
Exhibit 1. Inspector General, DoD,
            Endorsement Memorandum
Exhibit 2. AAA Audit Report, “Army’s
           General Fund Principal
           Financial Statements for Fiscal
           Year 1999: Summary Audit
           Report”
                                U.S. Army Audit Agency
Army’s General Fund
  Principal Financial
      Statements for
    Fiscal Year 1999

    Summary Audit Report




              9 February 2000
      Audit Report: AA 00-168
                          DEPARTMENT OF THE ARMY
                             U.S. ARMY AUDIT AGENCY
                            Office of The Auditor General
                               3101 Park Center Drive
                             Alexandria, VA 22302-1596




                                9 February 2000


Secretary of the Army


This report summarizes the results of our efforts to audit the Army’s
General Fund Principal Financial Statements for the fiscal year ended
30 September 1999. We performed our work pursuant to the Chief
Financial Officers Act of 1990 as amended by the Government
Management Reform Act of 1994.

We could not express an opinion on the financial statements primarily
because of inadequate accounting systems and incomplete or
unauditable supporting records. We were unable to apply other auditing
procedures to satisfy ourselves as to the fairness of the data presented.

This report doesn't contain recommendations, but it does include brief
discussions of our results and conclusions. More detailed discussions of
our results and conclusions, as well as recommendations, are in various
supporting audit reports (see Annex C).

I appreciate the courtesies and cooperation extended to us during the
audit.




For more information about this audit, please call the General Fund
Audits Division at (703) 681-9766. For extra copies of this report, please
call (703) 681-9863.
                                                  CONTENTS


                                                                                                Page


Background .......................................................................................... 5


Auditor's Report................................................................................. 11


Report on Internal Controls .............................................................. 15


Report on Compliance with Laws and Regulations .......................... 33


Audit Scope and Methodology........................................................... 39


Annexes

          A -       Financial Statements and Notes......................................... 43

          B -       Reported Material Weaknesses......................................... 125

          C -       Supporting Audit Reports ................................................ 129

          D -       Others Receiving Copies of the Report.............................. 130




Army's' General Fund Principal Financial Statements for Fiscal Year 1999 (AA 00-168)             Page 1
                                              BACKGROUND




Army's General Fund Principal Financial Statements for Fiscal Year 1999 (AA 00-168)   Page 3
BACKGROUND


                             Annual Financial Statements
Federal agencies are required to submit a set of financial statements,
overview and notes that were standardized by the Federal Accounting
Standards Advisory Board. The Army is required to prepare these
general fund financial statements:

      • Balance Sheet.

      • Statement of Net Cost.

      • Statement of Changes in Net Position.

      • Statement of Budgetary Resources.

      • Statement of Financing.

In addition, the Army must report required supplemental stewardship
information. The major component of this is National Defense Property,
Plant and Equipment, which is composed of weapon systems plus the
support property, plant, and equipment used in the performance of
military missions.


                                       Accounting Services
The Defense Finance and Accounting Service has a primary role in the
Army's financial operations. It performs much of the Army's accounting
services and prepares the Army's annual financial statements. The
Accounting Service—subordinate to the Under Secretary of Defense
(Comptroller)—owns and operates most of the financial accounting and
reporting systems used to account for the Army's resources. The Army
owns and operates various feeder systems that provide data to these
accounting and reporting systems. Since its establishment in 1991, the
Accounting Service has capitalized most of the Army's accounting offices.
All offices that account for Army resources report accounting data to the
Defense Finance and Accounting Service-Indianapolis Center, which uses
the data to prepare summary financial reports. Additional information
about the financial systems and the associated reporting structure is in
the Overview portion of the Army's Annual Financial Report.




Army's General Fund Principal Financial Statements for Fiscal Year 1999 (AA 00-168)   Page 5
                                              Audit Services
For the Army's FY 99 financial statements, the Inspector General, DOD
delegated audit responsibility to the U.S. Army Audit Agency. The
Inspector General, DOD assisted us by performing required audit work at
the Indianapolis Center. The work consisted of examining the processes
that the Indianapolis Center used to compile and summarize accounting
data and to prepare the Army's financial statements. In addition, our
audit work on real property was a coordinated effort with the Inspector
General, DOD and the U.S. General Accounting Office. The financial
statements are to be audited in accordance with Generally Accepted
Government Auditing Standards and Office of Management and Budget
Bulletin 98-08 (Audit Requirements for Federal Financial Statements).


                            Federal Accounting Standards
Office of Management and Budget Bulletin 97-01 (Form and Content of
Agency Financial Statements), as amended by subsequent memoranda,
specifies that Federal agencies are to adhere to the Statements of Federal
Financial Accounting Standards. The bulletin also identifies additional
sources of accounting principles and incorporates them into the following
overall hierarchy:

      1.     Individual standards agreed to by the Director of the Office of
             Management and Budget, the Comptroller General and the
             Secretary of the Treasury and published by the Office of
             Management and Budget and the General Accounting Office.

      2.     Interpretations related to the standards issued by the Office of
             Management and Budget in accordance with procedures outlined
             in its Circular A-134 (Financial Accounting Principles and
             Standards).

      3.     Requirements contained in Office of Management and Budget's
             Form and Content Bulletin in effect for the period covered by the
             financial statements.

      4.     Accounting principles published by other authoritative standard-
             setting bodies and other authoritative sources (a) in the absence
             of other guidance in the first three parts of this hierarchy, and
             (b) if the use of such accounting principles improves the
             meaningfulness of the financial statements.

The DOD Financial Management Regulation extends this hierarchy
downward by specifying three additional sources:

Army's General Fund Principal Financial Statements for Fiscal Year 1999 (AA 00-168)   Page 6
      5.     United States Government Standard General Ledger, published
             by the Department of the Treasury, Financial Management
             Service, through its Treasury Financial Manual.

      6.     Policies and guidance published in the DOD Financial
             Management Regulation.

      7.     Interim policies and guidance issued by the Office of the Under
             Secretary of Defense (Comptroller) through various memoranda.


                                           Internal Controls
Internal control, as it relates to the Principal Statements and Required
Supplementary Stewardship Information, is a process, effected by the
organization's management and other personnel, designed to provide
reasonable assurance that the following objectives are met:

      • Reliability of financial reporting – transactions are properly
        recorded, processed, and summarized to permit the preparation of
        the Principal Statements and Required Supplementary
        Stewardship Information in accordance with Federal accounting
        standards, and the safeguarding of assets against loss from
        unauthorized acquisition, use, or disposition;

      • Compliance with applicable laws and regulations – transactions
        are executed in accordance with: (a) laws governing the use of
        budget authority and other laws and regulations that could have a
        direct and material effect on the Principal Statements or Required
        Supplementary Stewardship Information, and (b) any other laws,
        regulations, and governmentwide policies identified by the Office of
        Management and Budget; and

      • Reliability of performance reporting – transactions and other data
        that support reported performance measures are properly
        recorded, processed, and summarized to permit the preparation of
        performance information in accordance with criteria stated by
        management.




Army's General Fund Principal Financial Statements for Fiscal Year 1999 (AA 00-168)   Page 7
                                       AUDITOR'S REPORT




Army's General Fund Principal Financial Statements for Fiscal Year 1999 (AA 00-168)   Page 9
                                        DEPARTMENT OF THE ARMY
                                             U.S. ARMY AUDIT AGENCY
                                             Office of the Auditor General
                                                3101 Park Center Drive
                                             Alexandria, VA 22302-1596




Secretary of the Army


As required by the Chief Financial Officers Act of 1990, as amended by
the Government Management Reform Act of 1994, the U.S. Army
prepared the accompanying General Fund financial statements for fiscal
year 1999. As delegated by, and in coordination with, the Inspector
General, DOD, we were engaged to audit these statements. The financial
statements are the responsibility of Army management. Our
responsibility is to express an opinion on these statements based on our
audit work.

We were unable to express an opinion on these financial statements
because inadequate accounting systems, insufficient audit trails, and
procedural problems prevented us from using any practical methods to
conduct audit work of sufficient scope to support an opinion. Therefore,
we caution users that the information presented in the financial
statements may not be reliable.

Internal controls weren't fully effective to ensure that the financial
statements contained no material misstatements. The Army and the
Defense Finance and Accounting Service have recognized many financial
reporting weaknesses and included them in their FY 99 annual
assurance statements.

Our limited audit work didn't identify any instances of unreported
failures to comply with laws and regulations related to the Army's
financial statements. However, the systems that support the Army's
financial statements didn't meet the requirements of the Federal
Financial Management Improvement Act of 1996. Specifically, these
systems didn't substantially comply with established Federal financial
management systems requirements, applicable Federal accounting
standards, and the U.S. Government Standard General Ledger at the
transaction level.

We also performed a limited review of the information in the Overview
section of the report and concluded that the financial data in that section
may not be reliable since it was derived from the same sources as the
financial statements.


Army's General Fund Principal Financial Statements for Fiscal Year 1999 (AA 00-168)   Page 11
As Required Supplementary Stewardship Information, the Stewardship
Statement includes national defense property, plant, and equipment;
heritage assets; and stewardship land. There was no requirement to
audit this information for FY 99. Accordingly, we did not audit it and do
not express an opinion on the information presented in the statement.

The supplementary information for deferred maintenance is not a
required part of the basic financial statements, and we did not audit and
do not express an opinion on such information. We didn't apply to the
information certain procedures prescribed by professional standards
because the official accounting guidance regarding the measurement
criteria and reporting placement of deferred maintenance on the financial
statements was not fully developed.

Except for the limitations described above, we performed our work in
accordance with generally accepted government auditing standards and
Office of Management and Budget Bulletin 98-08 (Audit Requirements for
Federal Financial Statements).




Army's General Fund Principal Financial Statements for Fiscal Year 1999 (AA 00-168)   Page 12
                      REPORT ON INTERNAL CONTROLS




Army's General Fund Principal Financial Statements for Fiscal Year 1999 (AA 00-168)   Page 13
                      REPORT ON INTERNAL CONTROLS


Internal controls didn't provide reasonable assurance that the financial
statements didn't contain material misstatements. The Army and
Defense Finance and Accounting Service have recognized many material
weaknesses and reported them in their FY 99 annual assurance
statement on internal management controls. (We discuss this issue in
the Report on Compliance with Laws and Regulations beginning on
page 33.)

We evaluated and tested relevant financial internal controls related to the
reporting of budgetary resources, material asset and liability balances,
and the compilation process for financial statements at the Defense
Finance and Accounting Service-Indianapolis Center. We also selectively
followed up on internal control deficiencies that we previously reported.
Because of accounting system deficiencies, we didn't attempt to audit the
expenses reported in the Army's statements.

We noted progress in several areas to correct previously identified
problems. However, we also identified additional internal control
problems. We consider all these problems reportable conditions under
standards established by the American Institute of Certified Public
Accountants and Office of Management and Budget Bulletin 98-08 (Audit
Requirements for Federal Financial Statements). Reportable conditions
represent significant deficiencies in the design or operation of the
internal control structure. Material weaknesses are reportable
conditions involving deficiencies in the design or operation of internal
controls leading to an unacceptable high risk that losses, noncompliance
or material misstatements in the financial statements could occur and
not be promptly detected.

The Army has recognized that significant problems exist with the
processes, procedures, and accounting systems used to prepare its
financial statements. To address these problems, the Deputy Assistant
Secretary of the Army for Financial Operations, in conjunction with
functional experts within and outside the Army, has prepared a detailed
plan called, "The Army Chief Financial Officers Strategic Plan." The
Army is actively using this plan as a key management tool to improve its
financial reporting, and it regularly reviews and updates the plan. As
stated in the overview of the Annual Financial Report, the Army
completed 115 of the separate tasks identified in the plan, but we haven't
verified the completion of these tasks. The Strategic Plan is updated
quarterly, and it currently includes more than 200 additional tasks to be
completed by the target date of 2003. The goal of the plan is to achieve



Army's General Fund Principal Financial Statements for Fiscal Year 1999 (AA 00-168)   Page 15
an unqualified audit opinion on the Army's financial statements for
FY 03.

In this report on internal controls, we summarize the Army's FY 99
financial statement reporting problems in three sections:

      • Systems and Procedures.

      • Financial Accounts.

      • Property Accounts.

Additional information is in our separate supporting reports listed in
Annex C.



SYSTEMS AND PROCEDURES


In this section we discuss:

      • Accounting systems.

      • Other systems.

      • Compilation process for financial statements.

      • Performance information.


                                       Accounting Systems
Deficiencies in the accounting and finance systems that account for
Army resources constitute the major reason for our inability to render an
audit opinion on the Army’s financial statements. The accounting
systems lack a single standard transaction-driven general ledger—an
essential element of control for sound, reliable financial reporting. In
addition, the accounting systems don't produce account-oriented
transaction files (subsidiary ledgers), and data for physical assets is
compiled using "work-around" procedures and data from management
systems not intended and not suitable for financial reporting.
Consequently, the audit trails necessary to verify and reconcile account
balances aren't adequate, and the statement balances aren't auditable by
any practical means.


Army's General Fund Principal Financial Statements for Fiscal Year 1999 (AA 00-168)   Page 16
Because of system deficiencies, the Army uses a consolidation of
accounting data from source documents, budgetary accounting systems,
and multiple field-level and department-level entries to produce the
financial statements. Army management couldn’t provide reasonable
assurance that the accounting and non-accounting systems used to
record and report Army financial data were reliable. It also
acknowledged the possible existence of material transactions that weren’t
properly recorded in the accounting records and included in the financial
statements.

The Defense Finance and Accounting Service, as functional proponent for
the Army’s accounting and financial management systems, has reported
inadequate general ledger control as a material weakness in its annual
statement of assurance since FY 91. The FY 99 statement of assurance
cites FY 03 as the estimated target date for correction.

The Accounting Service is working on a new accounting system—the
Defense Joint Accounting System—that it believes will resolve many of
the problems with existing systems. A test of the accounting system’s
support of financial operations is currently being conducted at the
Ballistic Missile Defense Organization. The test began in October 1998
and is scheduled to continue through March 2000. An Operational Test
and Evaluation is scheduled for April 2000. Successful completion will
result in Milestone Three approval and this will allow deployment to
additional DOD agencies. A prototype system originally scheduled to be
deployed at Fort Benning in March 2000 has been rescheduled for
October 2000. However, even if the tests are successful, the new system
will not be fully fielded for several years. In the interim, the Army will
continue to depend on inadequate accounting systems.


                                              Other Systems
The Army also needs to upgrade or replace many of its other systems
that feed data to the accounting system so that the requirements of
financial statement reporting can be met. The Army has recognized this
problem. It considers its feeder systems as not adequate to meet the
reporting requirements of the Chief Financial Officers Act and has
included numerous system improvements in its strategic plan. Including
these other system requirements in the strategic plan should enable
Army management to coordinate and direct the needed progress in other
automated systems. However, some of the expected improvements have
not occurred as soon as expected. For example, the Defense Property
Accountability System was to be fielded during FY 99 but fielding was
not completed. Significant delays of such feeder systems could affect the
Army's progress toward auditable financial statements.


Army's General Fund Principal Financial Statements for Fiscal Year 1999 (AA 00-168)   Page 17
          Compilation Process for Financial Statements
The Defense Finance and Accounting Service-Indianapolis Center's
compilation of financial data from field entities and other sources into
the Army's FY 99 General Fund financial statements wasn't in full
compliance with applicable laws and regulations. Improved procedures
and internal controls were needed in several areas.

The Indianapolis Center's use of status and expenditure data is an
unacceptable method for compiling the financial statements. Taken as a
whole, the Army's General Fund financial statements won't be auditable
until a transaction-driven, integrated accounting system based on
general ledger accounting is implemented Armywide.

The Indianapolis Center materially reduced the number and scope of
adjustments made to the general ledger while preparing the Army's FY 99
financial statements. The Indianapolis Center made 423 adjustments for
about $993 billion while preparing the FY 98 financial statements. For
FY 99 it made 291 adjustments for about $408 billion. However,
controls over the adjustments needed additional improvements:

     •    Two of the adjustments, valued at about $131 billion, were used to
          force the general ledger to match the status of funds data. This is
          significantly less than the 3 adjustments valued at about
          $512 billion used for the same purpose for FY 98. However, these
          adjustments were not properly supported. Accounting Service
          regulations require that when the proper authoritative source has
          determined that there is a discrepancy in data between two or
          more sources, a correcting journal voucher must be prepared.
          Evidence to support this type of journal voucher includes source
          data documentation and related analysis documenting the correct
          amount. In addition, the journal voucher must document why
          there was a discrepancy in the source data amounts and how the
          proper authoritative source determined that the entries included
          on the journal voucher are correct. The two adjustment vouchers
          didn't include this evidence.

     •    Many general ledger adjustments didn't have adequate supporting
          documentation attached. Of the 291 general ledger adjustments
          prepared for FY 1999, there were 50 that didn't include the
          supporting documentation required by Accounting Service
          regulations. For example, the adjustment for environmental
          liabilities, about $27 billion, included a computation of the
          allocation of the liabilities among several categories but didn't
          include the original data on which the computation was based.


Army's General Fund Principal Financial Statements for Fiscal Year 1999 (AA 00-168)   Page 18
                                  Performance Information
We conducted only a limited review of information on performance
results that was presented in the Overview section. In addition, we
obtained a basic understanding of the internal controls related to
performance results that were reported in the Overview and
Supplemental Financial and Management Information. Our procedures
were not designed to provide assurance on internal control over reported
performance measures, and, accordingly, we do not provide an opinion
on such control.

However, last year we noted that in one of our separate audits we had
determined that the Army didn't collect accurate data on equipment
readiness and therefore the performance results relating to mission
capable readiness were misstated. The agreed-to corrective action was to
be completed during FY 99. However, this action was rescheduled for
FY 00. Therefore, improved controls over this data have not yet been
fully implemented. We will conduct additional reviews during FY 00.



FINANCIAL ACCOUNTS


In this section we discuss:

      • Reporting of budgetary resources.

      • Liabilities.

      • Fund balance with Treasury.

      • Problem disbursements.

      • Progress payments.

      • Military payroll issues.


                        Reporting of Budgetary Resources
Internal controls over the accounting, processing, and reporting of
financial transactions that we tested at the local level weren’t adequate to
ensure the reasonableness of the individual transactions submitted for
the Statement of Budgetary Resources. In addition, information in the


Army's General Fund Principal Financial Statements for Fiscal Year 1999 (AA 00-168)   Page 19
statement wasn't based on a standard general ledger as required.
Therefore, the accuracy of the statement is unknown.

We reviewed an Armywide sample of transactions for obligations,
recoveries, disbursements, collections, and reimbursables to assess the
effectiveness of controls. For each type of transaction we found an
unacceptable error rate. The problems we found included
misclassification of transactions, use of incorrect reimbursement source
codes, mismatched disbursements, and the lack of supporting
documentation. The results of our sample indicated that there was an
unacceptably high level of control risk that amounts reported in the
Army's Statement of Budgetary Resources would not be reasonably
accurate.

Also, accounting systems, key accounting procedures, and accounting
practices used for preparing the Statement of Budgetary Resources didn’t
comply with legal and regulatory requirements. The Federal Financial
Management Improvement Act of 1996 requires each agency to
implement and maintain financial management systems that comply
with Federal financial management systems requirements, applicable
Federal accounting standards, and the United States Standard General
Ledger.

Because the systems don't comply with the Improvement Act, Defense
Finance and Accounting Service-Indianapolis Center personnel had to
rely on fund control data for the values reported in the Statement of
Budgetary Resources instead of on accounting data from a general ledger
as required. Consequently, personnel had to develop crosswalks and
complicated formulas to convert the data for the Statement of Budgetary
Resources. The lack of financial management systems and the use of
alternate procedures for preparing the financial statements meant that
adequate audit trails weren’t available, and it was labor intensive to trace
summary transactions or balances to source documentation.

The following two issues that directly affect the data in the Statement of
Budgetary Resources remained unresolved for FY 99:

      • Accounting systems lack a standard general ledger and double
        entry accounting. As a remedy, the Defense Finance and
        Accounting Service plans to field the Defense Joint Accounting
        System. However, fielding is not scheduled to be completed until
        FY 03.

      • The effect of intra-Army transactions wasn’t eliminated from the
        statement. Even though guidelines don’t require elimination of
        these transactions until FY 00, the balances reported in the
        statement will be materially misleading without eliminations.

Army's General Fund Principal Financial Statements for Fiscal Year 1999 (AA 00-168)   Page 20
                                                   Liabilities
There were insufficient controls and audit trails for us to evaluate total
liabilities of $35 billion that the Army reported for FY 99. We did find
that the Army had not been reporting environmental liabilities that were
covered by budgetary resources. DA personnel agreed that these
amounts should be reported and included them in the FY 99 financial
statements. However, until adequate supporting documentation and
reporting guidance is available for all of the Army's material liabilities,
the reliability of the reported amounts will be questionable.


Environmental Liabilities

We found inadequate supporting documentation for liabilities related to
environmental programs. The Army reported about $22 billion of
environmental liabilities related to the estimated future outlays for these
five major programs:

      • Chemical Demilitarization Stockpile Program.

      • Chemical Demilitarization Non-stockpile Program.

      • Restoration of Operating Installations.

      • Restoration of Formerly Used Defense Sites.

      • Environmental Compliance.

For most of these programs, the Army generally had determined the
types and quantities of related projects. For example, there were
life-cycle cost estimates for every authorized demilitarization site related
to both the stockpile and non-stockpile programs. However, problems
with the components of the life-cycle cost estimates made the reported
liability of $8.4 billion for these two programs questionable.

Because of the Army's use of estimating procedures to determine liability
values, the supporting documentation for the specific projects within
these programs must show not only the dollar amount of each project,
but must also clearly show the methodology and computations. We
found that such documentation frequently wasn't available or wasn’t
current.




Army's General Fund Principal Financial Statements for Fiscal Year 1999 (AA 00-168)   Page 21
Additional Liabilities

We also noted problems with other categories of liabilities:

      • The Army reported about $2.4 billion for unexploded ordnance.
        Guidance for identifying all such ordnance wasn't completed at the
        time of our review. Until this guidance is issued, the reliability of
        the reported total will be uncertain. The Army has recognized this
        problem and reported it as a material weakness in its annual
        statement of assurance.

      • The Army didn't report an amount for base realignment and
        closure in its financial statements. DOD told the Army not to
        include it because it would be reported on the DOD statements.
        We believe this understates the Army's liability.

      • The Army didn't report any liabilities for Panama Canal
        environmental cleanup costs. In our FY 98 report, we reported
        that this liability was understated by $138 million. For FY 99,
        Army managers told us that there was no liability to report, but
        they didn't have documentation to show that this liability had been
        cleared.

These three issues further reduced the reliability of the Army's reported
liabilities.


                              Fund Balance with Treasury
We weren't able to attest to the reasonableness of the reported total for
Fund Balance with Treasury of about $32.3 billion as of 30 September
1999. We found material unreconciled differences between the Army's
official report on net disbursements and supporting records.
Unreconciled check issue, deposit, and Online Payment and Collection
differences for balances over 60 days old at fiscal year-end totaled about
$339 million and were material with regards to the Fund Balance With
Treasury balance of $32.3 billion. Taken as a whole, the unreconciled
differences represent a material uncertainty with regards to the Fund
Balance with Treasury line item balance. In addition, a reconciling
difference of about $25.9 million should have been disclosed in
footnote 2.

     •    Unreconciled Online Payment and Collection differences increased
          significantly over last fiscal year. Online Payment and Collection
          differences are intragovernmental transaction amounts reported by
          an organization but not reported by its trading partner.
          Differences over 60 days old totaled about $171 million for FY 99
Army's General Fund Principal Financial Statements for Fiscal Year 1999 (AA 00-168)   Page 22
          compared to about $20 million for FY 98. However, this amount
          does not include about $608 million of Online Payment and
          Collection differences the Indianapolis Center’s Directorate for
          Central Disbursing, the Army’s largest disbursing station, had
          moved to a suspense account by August 1999. Differences moved
          to a suspense account are not included in the Online Payment and
          Collection differences reported by the Finance and Accounting
          Service. Adequate audit trails weren't available for us to determine
          how much of the $608 million was resolved by fiscal year end.

     •    Treasury reports showed a net amount of about $972 million of
          unresolved discrepancies as of 30 September 1999 between
          Treasury records and disbursing officer statements of
          accountability for checks issued. The total amount of the
          discrepancies was about $1.5 billion. As of 30 September 1998,
          the net discrepancy between Treasury records and disbursing
          officer statements of accountability for checks issued was about
          $704 million, and the total amount of the discrepancies was about
          $1.8 billion. Only about $116.3 million of the unresolved
          discrepancies of about $972 million reported as of 30 September
          1999 was more than 60 days old. Most differences cleared the
          following month and management asserted that the major cause of
          the discrepancies was timing differences between the two sets of
          records. However, audit work beyond our scope of work for FY 99
          would be necessary to confirm this.

Management needed to examine the differences to make sure they
weren't indicators of potentially serious problems. For example, a check
cashed and not reported as issued could be written on pilfered check
stock or indicate other fraudulent payments. In addition, if
discrepancies aren't researched and corrected quickly, the research effort
becomes progressively more difficult because information needed for the
research isn't readily available and the unresolved differences continue to
grow. For example, during the year the Finance and Accounting Service
determined that $46.6 million of the old check discrepancies that existed
on 30 September 1999 should be written off as losses because they could
no longer be researched or corrected. Moreover, the failure to promptly
research and resolve these discrepancies creates a weak control
environment where fraud could occur and go undetected.


                                   Problem Disbursements
The Army reported significant amounts of problem disbursements at the
end of FY 99. Two primary categories of problem disbursements are
unmatched disbursements (disbursement transactions that accounting
offices have not matched to the correct detail obligations in the

Army's General Fund Principal Financial Statements for Fiscal Year 1999 (AA 00-168)   Page 23
accounting records) and negative unliquidated obligations (disbursement
transactions that exceed the value of the matching detail obligations).
The Army and the Defense Finance and Accounting Service recognize
problem disbursements as a significant issue, but the reported status at
yearend indicated that much work remained before this issue would be
under control.

As of 30 September 1999, the Army reported unmatched disbursements
of about $1.8 billion (absolute value) and negative unliquidated
obligations of about $782 million (net value). Compared to the end of the
prior fiscal year, these amounts represented a decrease in unmatched
disbursements but represented an increase in negative unliquidated
obligations. The Army's FY 99 goals were to reduce unmatched
disbursements 30 percent, to about $2.1 billion (absolute value), and to
reduce negative unliquidated obligations 50 percent, to $203 million (net
value). Therefore, the Army reportedly met its unmatched disbursements
goal but didn't meet the negative unliquidated obligations goal. In our
report on the Army's FY 98 financial statements we reported similar
trends—that the reported amount of unmatched disbursements had
decreased but that the amount of negative unliquidated obligations had
increased.

The Accounting Service has reported multiple material weaknesses
related to problem disbursements in its annual assurance statements.
In some cases corrective action is taking longer than expected. One of
the weaknesses that we described in our report last year dealt with the
contract payment system. In that weakness the primary causes for the
problem disbursements were identified as a lack of integration between
the entitlement and accounting systems. According to this year's
assurance statement the target date for correction has been extended
2 years to FY 03.

The Army and the Accounting Service previously established a Joint
Reconciliation Program to increase their combined efforts to solve this
issue. These efforts are continuing during FY 00. However, the high
amounts of problem disbursements cast doubt on the reliability of the
amounts reported in the Army's financial accounts.


                                         Progress Payments
During FY 96, we identified problems with recording holdbacks related to
progress payments. The Accounting Service had not implemented
changes to correct these problems. In our report on progress payments
for the FY 96 financial statements, we recommended that the Accounting
Service:


Army's General Fund Principal Financial Statements for Fiscal Year 1999 (AA 00-168)   Page 24
      • Modify Army accounting systems to provide for recording of
        contract holdbacks and use the systems to record holdbacks
        related to progress payments.

      • Make sure actual progress payment rates are used when
        calculating contract holdback amounts.

      • Review trial balances submitted by operating locations and
        accounting offices to make sure that stations reporting account
        balances for contract holdbacks also report an account balance for
        the corresponding asset account.

The Accounting Service agreed to test the recommendation to review trial
balances, but didn’t agree to modify systems to provide for recording of
contract holdbacks or to make sure actual progress payment rates were
used when calculating contract holdback amounts.

On 2 October 1998, the Office of Management and Budget made a
decision that supported our position. However, DOD has not
implemented this decision and has indicated that it intends to challenge
it. Since we didn't conduct detailed audit work in this area for FY 99, we
estimated the effect on the financial statements. To estimate the value of
total unrecorded contract holdbacks, we used balances from general
ledger accounts for Progress Payments Made to Others, Work in Process-
Contractor, and Contract Holdbacks. We used information from those
accounts and an average progress payment percentage that we developed
during our prior audit. Using this procedure we estimated the following
effect:

      • Property, Plant and Equipment (Construction-in-Progress) would
        be understated by about $2.4 billion for the amount of progress
        payments and holdbacks that should have been recorded in
        general ledger accounting code 1582, Work in Process-Contractor.

      • Other Assets would be overstated by about $2 billion for the
        progress payments recorded in general ledger accounting
        code 1453, Progress Payments Made to Others.

      • Accounts Payable Non-Federal would be understated by about
        $385 million for the unrecorded contract holdbacks.

Because of the limited scope of our assessment, we didn't recommend
adjustments to the financial statements. However, we believe the Army
should have explained in the notes what the financial statement effect
would have been if the Army had implemented the Office of Management
and Budget decision.


Army's General Fund Principal Financial Statements for Fiscal Year 1999 (AA 00-168)   Page 25
                                     Military Payroll Issues
The Army and the Accounting Service are continuing their efforts to
integrate the personnel and pay systems to ensure that only personnel
entitled to be paid are actually paid. The primary focus of the integration
process is for various pay events (such as base pay, special pay, or other
entitlements) to be transmitted from personnel systems to finance. The
fielding of software upgrades to enhance the interface between personnel
and pay systems was scheduled to begin during FY 98. However, initial
fielding has been delayed due to several issues including year 2000
concerns and an effort to improve procedural efficiency rather than
merely automating the existing manual procedures. Current projections
are to field more than 80 pay events in 4 increments. The first increment
will consist of 10 pay events and is projected for fielding during the
second quarter FY 02. The second release will consist of 22 pay events
and is scheduled for FY 03. The remaining two releases are not yet
funded and scheduled.



PROPERTY ACCOUNTS


In this section we discuss:

      • Equipment.

      • Real property.

      • Inventory.


                                                  Equipment
The Army achieved some progress during FY 99 but still didn't have
adequate procedures and controls to ensure that values reported for
general equipment were accurate and complete. This condition was one
of the material weaknesses that the Army included in its FY 99 Annual
Statement of Assurance on Management Controls. Specifically, the Army
couldn't comply with Federal Accounting Standards because its financial
and property accountability systems don't capture the data necessary to
properly value equipment and compute depreciation.

To bring the Army into compliance with Federal Standards for financial
reporting, the Army has initiated two major efforts. The Army, as part of

Army's General Fund Principal Financial Statements for Fiscal Year 1999 (AA 00-168)   Page 26
an Office of the Secretary of Defense initiative, has contracted with a
public accounting firm to determine valid costs and depreciation
amounts for the Army's general equipment. Also, to ensure that Army
systems meet financial reporting requirements for its equipment, the
Defense Property Accountability System is being implemented to replace
or interface with existing systems that don't meet these requirements.

However, fielding the new system was not completed during FY 99.
Therefore, DA used an Armywide data call to generate values for general
equipment and related depreciation to be reported in the financial
statements. A task force at the U.S. Army Materiel Command's Logistics
Support Activity conducted the data call. The task force followed the
same routines and procedures as last year and improved its response to
the data call from about 80 percent to about 97 percent. However,
significant problems related to the reliability and completeness of
property book data—plus time constraints resulting from the data call
process—prevented us from validating the value of general equipment on
the FY 99 financial statements. Nevertheless, during our limited review,
we identified three problems that affect the accuracy and completeness of
financial statement data.

      • The value for general equipment decreased by a large unexplained
        amount from FY 98 to FY 99. Our review of the preliminary FY 99
        value disclosed computation and recording errors that resulted in
        an understatement of about $1.3 billion. However, after the Army
        reprocessed the source data, there was still a large unexplained
        decrease for the year. The reported net value of equipment for
        FY 98 was about $1.6 billion and about $857 million for FY 99.
        This situation casts doubt on the reliability of the reported value
        and prevented the Army from establishing a valid baseline that
        could be carried forward from one year to the next.

      • DA fell short of its original plan for implementing the Defense
        Property Accountability System in FY 99. As of December 31,
        1999, the Defense Property Accountability System had been
        implemented at 25 sites. A fielding plan is in place to bring
        targeted sites on line by the 3rd quarter of FY 00. We believe that
        the Army must continue to expedite the fielding process.
        Implementing the Defense Property Accountability System directly
        affects the Army's ability to meet Federal reporting requirements
        for general equipment. Problems encountered with the data call
        process makes implementing the new system even more important.

      • Even after the planned implementation of the Defense Property
        Accountability System is completed, the system won't capture or
        report some of the Army's general equipment. The system is being
        implemented according to Army policy at Table of Distribution and

Army's General Fund Principal Financial Statements for Fiscal Year 1999 (AA 00-168)   Page 27
          Allowance sites. However, unless this implementation policy is
          modified the system won't capture general equipment in the
          possession of Modification Table of Organization and Equipment
          (MTOE) units or information contained in Army Materiel Command
          depots. Our analysis of property book data provided by the task
          force showed that about $438 million, or 22 percent, of general
          equipment was accounted for by units that won't convert to this
          system. These are basically tactical units that will remain on the
          Standard Property Book System – Redesign, or Army Materiel
          Command depots that account for property using the Commodity
          Command Supply System. The Army Equipment Working Group
          will address these issues when it meets in February 2000.

Until improved procedures and controls are in force, the reported values
for equipment will not be reliable.


                                               Real Property
Real property values reported in the FY 99 statements are probably
misstated, but the amount of the misstatement is unknown. The Army
hasn't overcome the long-standing problem of inadequate historical cost
data. In addition, the Army hasn’t corrected previously reported
problems on the timely recording of real property assets, and Army
activities didn’t consistently record assets when they were placed in
service. The Army also wasn’t able to implement adequate procedures
for reporting real property improvements and reliable depreciation
amounts because it didn’t field the Integrated Facilities System interface
with the Defense Property Accounting System. Inconsistent reporting of
construction in progress also contributed to the uncertainty of the
reported values.


Validation of Real Property Values

To overcome the lack of historical cost documentation, DOD engaged
PricewaterhouseCoopers to evaluate the recorded costs of real property
assets as of 30 September 1998. The objective was to determine a valid
baseline value of real property. Once this baseline is established, future
audit work could focus on real property transactions that occurred after
the baseline date. PricewaterhouseCoopers reviewed a DOD-wide sample
of real property for this effort. However, at the time we completed the
fieldwork on the Army's FY 99 financial statements, the results of
PricewaterhouseCoopers analysis were still being evaluated by the audit
and financial management community. Therefore, the impact on the
reported value of the Army's real property is not yet known.


Army's General Fund Principal Financial Statements for Fiscal Year 1999 (AA 00-168)   Page 28
Accounting for Changes to Real Property Values

In conjunction with the PricewaterhouseCoopers validation effort, we
reviewed about $408 million of FY 99 real property transactions at
23 locations Armywide. We found that transactions valued at about
$113 million, or about 27 percent, were completed in prior periods and
should have been reported in the prior periods. We also identified about
$43 million of real property values that were omitted from the FY 99
financial statements because supporting documentation wasn’t prepared
or wasn't provided to real property offices. Activities also didn’t
consistently record accurate capitalization dates. Some activities used
either the date posted to the automated system or the date they accepted
accountability for the real property. Federal accounting standards
require the recognition of real property assets when the assets are placed
in service. Correct capitalization dates are necessary to accurately report
depreciation and real property values in the financial statements.

Document retention wasn’t a problem for the transactions that we
reviewed. Nearly all activities had supporting documentation for FY 99
transactions that generally supported dollar values recorded in the
automated system.

Because it didn’t field the interface between the Integrated Facilities
System and the Defense Property Accounting System during FY 99, the
Army continued to use the business rules it developed for the FY 98
financial statements. These rules included the application of
capitalization thresholds and the computation of depreciation. As in
FY 98, the Army applied these rules to the Headquarters Executive
Information System. However, because the real property information
resided at a summary level in this system, the Army was unable to apply
the rules to individual capital improvements. Therefore, it was unable to
identify accurate years for depreciating these improvements. Until the
new system is fielded, this problem will continue to exist.


Construction in Progress

The U.S. Army Corps of Engineers needed to improve internal control
procedures to ensure that completed real property projects are promptly
transferred to Army installations at the proper amount. Although the
Corps had issued guidance on the preparation of transfer documents,
the various Corps districts have inconsistently implemented this
guidance, and therefore, transfer documents were not always prepared
timely. In addition, transfer documents didn't always include the same
types of costs for a given phase of completion. As a result, completed


Army's General Fund Principal Financial Statements for Fiscal Year 1999 (AA 00-168)   Page 29
projects could be incorrectly classified in the financial statements or not
included in the financial statements.


                                                   Inventory
Internal controls were not fully effective over the reporting of munitions
as inventory and the related impact on stewardship reporting. Also,
DOD and the Army were still evaluating the criteria for classifying certain
items as operating materials and supplies.


Wholesale Munitions

We reviewed two commands and found a control weakness at one of
them. Aviation and Missile Command didn't research and adjust many
of the discrepancies found during monthly reconciliations. Gross
discrepancies between the accountable and custodial records were about
$385 million in August 1999 and the command's record accuracy rate
was only about 80 percent compared to the existing standard of
95 percent. As a result, the accuracy of the commodity system's
wholesale missile balances was questionable. We did a followup review
in October and found that the discrepancies still weren't being resolved.
In addition, the command didn't have controls to ensure that the value of
missiles reported on the stewardship report was subtracted from the
value of munitions reported in the balance sheet. We identified
$2.4 billion of missile-related equipment that should be subtracted from
the Army's FY 99 balance sheet. After being informed of this, command
processed an appropriate journal voucher.


Operating Materials and Supplies

The Army and DOD have action ongoing to identify the types of items
that should be reported as operating materials and supplies. The
particular issue being reviewed is determining the conditions for using
the purchase method versus the consumption method. Under the
purchase method, items are expensed when they are purchased. Under
the consumption method, items are reported as assets when they are
purchased and expensed when they are issued to an end user. This
ongoing action is included in the Army's strategic plan, and the final
outcome will have a direct impact on the reported amount of operating
materials and supplies.




Army's General Fund Principal Financial Statements for Fiscal Year 1999 (AA 00-168)   Page 30
                  REPORT ON COMPLIANCE WITH LAWS
                         AND REGULATIONS




Army's General Fund Principal Financial Statements for Fiscal Year 1999 (AA 00-168)   Page 31
                  REPORT ON COMPLIANCE WITH LAWS
                         AND REGULATIONS


The Army isn't yet able to fully comply with the Chief Financial Officers
Act of 1990 and related requirements. However, during our review of
compliance with laws and regulations, we found no material instances of
unreported legal or regulatory infractions.

We tested the Army's compliance with selected provisions of laws and
regulations throughout the audit. Instances of noncompliance are
reportable if they could result in material misstatements to the financial
statements, or if the sensitivity of the matter would cause others to
perceive it as significant.

The noncompliance problems we identified were directly or indirectly tied
to internal control weaknesses and the Army's inability to fully comply
with the Chief Financial Officers Act (and related implementing
guidance). We discuss these problems in the Report on Internal
Controls.

We also tested and reviewed compliance with certain key laws that
affected the Army's ability to produce reliable financial statements. We
discuss four pertinent laws in the following paragraphs. However, the
objective of our audit wasn't to provide an opinion on the Army’s overall
compliance with laws and regulations, and we do not express such an
opinion.


                               Chief Financial Officers Act
We evaluated the Army's compliance with the Chief Financial Officers Act
of 1990, as amended by the Government Management Reform Act of
1994, and various implementing regulations issued by the Office of
Management and Budget and DOD, as they relate to presentation of
information in financial statements. The Army and the Accounting
Service have made a concerted effort to meet the act's requirements. But
current management and accounting systems weren't designed for
financial statement reporting, and they can’t produce reliable and
auditable financial statements. Until system deficiencies are resolved,
the Army and the Accounting Service will be unable to produce
statements that conform to prescribed accounting guidance.
Nevertheless, we have identified areas in which the Army and the
Accounting Service can achieve financial reporting improvements over
the short term. We discuss these areas and the necessary corrective


Army's General Fund Principal Financial Statements for Fiscal Year 1999 (AA 00-168)   Page 33
actions in the Report on Internal Controls, and in the audit reports listed
in Annex C.


                                        Anti-Deficiency Act
We evaluated the Army's compliance with the Anti-Deficiency Act as part
of our review of the compilation of the financial statements at the
Indianapolis Center. Our review at that level didn't identify any potential
violations of the act. However, because of the magnitude of the Army's
problem disbursements, we could not fully verify the Army's compliance
with the act.


               Federal Managers' Financial Integrity Act
The Federal Managers' Financial Integrity Act of 1982 requires the Army
and the Accounting Service to report annually to the Secretary of Defense
about whether their management controls comply with the act's
requirements. In their respective FY 99 annual assurance statements,
the Army and the Accounting Service reported several management
control weaknesses involving noncompliance with prescribed accounting
principles, standards, and related requirements. The specific
weaknesses most directly related to the Army's financial statements
follow. Summaries of these weaknesses are in Annex B.


Army Assurance Statement

The Army reported 10 uncorrected material weaknesses for FY 99. The
following weaknesses most directly affect the accuracy and reliability of
the Army's financial statements:

      • Financial Reporting of Real Property and General Equipment.

      • Information Systems Security.

      • Equipment In-Transit Visibility.

      • Management of Unexploded Ordnance and Other Constituents.

      • Pollution Prevention.




Army's General Fund Principal Financial Statements for Fiscal Year 1999 (AA 00-168)   Page 34
Defense Finance and Accounting Service Assurance Statement

The Accounting Service reported 38 uncorrected material weaknesses for
FY 99. Here are examples of weaknesses that directly affect the
accounting data that the Accounting Service uses to prepare the Army's
principal financial statements.

      • Inadequate General Ledger Control and Unreliable Financial
        Reporting.

      • Reconciliation of Suspense Account Balances.

      • Interface Between Contract Payment and Accounting Systems
        (Negative Unliquidated Obligations (NULO) and Unmatched
        Disbursements).

      • Inadequate Systems Interface Between Computerized Accounts
        Payable System (CAPS) and Standard Army Finance Systems
        Redesign (SRD-1).

      • Problem Disbursements.

      • Fragmented and Incomplete Defense Joint Military Pay Systems
        (DJMS) Requirements and System Specifications Documentation.

      • Fund Balances with Treasury.

      • Access Deficiency to Departmental Accounting Files.


                           Federal Financial Management
                                 Improvement Act
The Federal Financial Management Improvement Act of 1996 requires
each Federal agency to implement and maintain financial management
systems that comply substantially with Federal financial management
systems requirements, applicable Federal accounting standards and the
U.S. Government Standard General Ledger at the transaction level. The
act also requires that we report on agency compliance with these
requirements.

Financial management systems didn’t meet the requirements of the
Federal Financial Management Improvement Act of 1996. The lack of a
single integrated general ledger and the differences between status of
appropriation data and the general ledger data complicated the financial
statement compilation process. The Indianapolis Center made material

Army's General Fund Principal Financial Statements for Fiscal Year 1999 (AA 00-168)   Page 35
adjustments to the general ledger data to make it match the status of
appropriation data without knowing the reasons for the differences.

The Assistant Secretary of the Army (Financial Management and
Comptroller) has stated that the Army cannot provide reasonable
assurance that the accounting and non-accounting systems used to
record and report Army financial data are reliable because they don't
meet the standards set by the Office of Management and Budget.
Therefore the Army uses a consolidation of accounting data from source
documents, budgetary accounting systems, and multiple field-level and
department-level data inputs to produce the financial statements.

DOD has also acknowledged the existence of problems with the financial
systems. In its Annual Statement of Assurance for FY 99, the
Accounting Service stated:

          Financial information in the Department of Defense is
          not always compiled and adequately maintained within
          accounting, finance, and other feeder systems, is not
          always fully compliant with regulatory and statutory
          requirements, and overall cannot be processed into
          financial statements that can withstand the rigors of
          financial audit.


                            Federal Accounting Standards
As noted in the Report on Internal Controls, the Army's financial
statements weren't prepared in full accordance with Federal accounting
standards. This is primarily due to the lack of adequate accounting
systems.




Army's General Fund Principal Financial Statements for Fiscal Year 1999 (AA 00-168)   Page 36
                      AUDIT SCOPE AND METHODOLOGY




Army's General Fund Principal Financial Statements for Fiscal Year 1999 (AA 00-168)   Page 37
                      AUDIT SCOPE AND METHODOLOGY

Army management, with support provided by the Defense Finance and
Accounting Service, is responsible for:

      • Preparing the annual financial statements in conformity with
        applicable accounting principles.

      • Establishing and maintaining internal controls and systems to
        provide reasonable assurance that the broad control objectives of
        the Federal Managers’ Financial Integrity Act are met.

      • Complying with applicable laws and regulations.

We were responsible for evaluating the financial statements, related
internal controls, and compliance with laws and regulations. In carrying
out these responsibilities, we:

      • Evaluated and, as necessary, tested relevant internal controls
        related to:

                    Reporting of budgetary resources.

                    General equipment.

                    Real property.

                    Inventory.

                    Liabilities.

                    The overall process for compiling the financial statements.

      • Conducted limited followup reviews on previously reported
        problems and recommendations related to:

                    Accounting systems.

                    Fund balance with Treasury.

                    Problem disbursements.

                    Payroll.




Army's General Fund Principal Financial Statements for Fiscal Year 1999 (AA 00-168)   Page 39
                    Progress payments.

                    Construction in progress.

      • Evaluated compliance with selected laws and regulations.

      • Reviewed the Overview section of the Annual Financial Report for
        consistency with data reported in the financial statements and to
        test the existence and completeness assertions over performance
        information.

We didn’t conduct audit work on programs that were classified for
national security.

Except for the limitations on our work described in the body of this
report, we performed our work in accordance with generally accepted
government auditing standards and Office of Management and Budget
Bulletin 98-08 (Audit Requirements for Federal Financial Statements).




Army's General Fund Principal Financial Statements for Fiscal Year 1999 (AA 00-168)   Page 40
                                                   ANNEXES




Army's General Fund Principal Financial Statements for Fiscal Year 1999 (AA 00-168)   Page 41
                                                                                      ANNEX B


                    REPORTED MATERIAL WEAKNESSES

In the annual assurance statements for FY 99, the Army and the Defense
Finance and Accounting Service both reported uncorrected material
internal control weaknesses that directly relate to the Army’s financial
statements. This annex summarizes those weaknesses.


                               Army Assurance Statement

The Army reported 10 uncorrected material weaknesses for FY 99, and
5 directly related to the accuracy and reliability of the Army’s financial
statements. Here is a summary of these five weaknesses as reported in
the assurance statement.

1. Financial Reporting of Real Property and General Equipment.
The Army does not currently meet Federal accounting standards for the
financial reporting of real property and general equipment. These
standards require Federal agencies to present fairly the cost and
depreciation of these assets in their financial statements. To meet this
requirement, Army records must capture the correct acquisition date and
cost. In most cases, current Army systems weren't designed to produce
such information. As a result, information on acquisition date and cost
is not always available or accurate. The Army's inability to identify an
item's acquisition date and cost prevents the computation of depreciation
and the determination of value for financial reporting. (Identified: FY 99.
Resolution Target: FY 01.)

2. Information Systems Security. Unauthorized personnel have
successfully attacked and penetrated the Army’s unclassified automated
information systems and telecommunications networks. These
intrusions have lead to the identification of systemic deficiencies in
systems and network security design and implementation; incident
response, containment, and implementation of countermeasures; and
information systems security education, training, awareness; and
professional development. To correct these weaknesses, Army leadership
has, in the Command and Control Protect Program Management Plan,
outlined the measures it will take to ensure the Army’s portion of the
Defense information infrastructure is adequately protected. (Identified:
FY 96. Resolution Target: FY 03.)

3. Equipment In-Transit Visibility. Systems interface and logistics
process problems cause a significant portion of the in-transit records
displayed by the Continuing Balance System-Expanded to be invalid.
Equipment involved had been received and reported as on hand by the

Army's General Fund Principal Financial Statements for Fiscal Year 1999 (AA 00-168)      Page 125
                                                                                      ANNEX B


receiving units, but the receipt transactions didn’t close out the
shipment (in-transit) records. As a result, the Army didn’t have reliable
data about the value of equipment in-transit, and the value of in-transit
equipment reported in the Army’s financial statements was misstated by
a significant but unknown amount. (Identified: FY 96. Resolution
Target: FY 00.)

4. Management of Unexploded Ordnance and Other Constituents.
Neither the Army nor DOD has an effective, integrated and proactive
unexploded ordnance management program that addresses the full
life-cycle perspective of ranges, land withdrawal, munitions, and
unexploded ordnance. Also, neither the Army nor DOD has ready access
to necessary science and technology information to accurately assess
and predict the operational, safety, health, and environmental or fiscal
impacts to ensure the unexploded ordnance on ranges is being
proactively managed. (Identified: FY 98. Resolution Target for Phase
One: FY 00.)

5. Pollution Prevention. A disconnect between policy setting and
funding execution has created an Army accountability issue within the
environmental program. This management deficiency has resulted in a
failure to identify and implement various pollution prevention
requirements and opportunities that could reduce “total ownership cost”
for the Army. This could result in the Army not meeting the
requirements of Federal, State and local regulations on pollution
prevention, and thus could likely increase future costs and potential
liabilities associated with environmental compliance and restoration.
(Identified: FY 98. Resolution Target: FY 00.)


                Defense Finance and Accounting Service
                         Assurance Statement
The Accounting Service reported 38 uncorrected material internal control
weaknesses for FY 99. Here are summaries of some of the reported
weaknesses that most directly affect the Army’s financial statements as
reported in the assurance statement.

1. Inadequate General Ledger Control and Unreliable Financial
Reporting. The Accounting Service has a material internal control
weakness in general ledger and financial reporting that is attributable to
many factors in the control environment, accounting and related
systems, and control procedures. Overall, the accounting systems don't
have general ledgers that permit adequate recording and reporting of
financial transactions. Each DOD accounting system has its own
general ledger, and efforts to implement the U.S. Government Standard

Army's General Fund Principal Financial Statements for Fiscal Year 1999 (AA 00-168)      Page 126
                                                                                      ANNEX B


General Ledger are continuing. Effective control procedures over
accounting and reporting will be impossible until a single, standard
general ledger is developed and implemented in the DOD systems.
(Identified: FY 91. Resolution Target: FY 03.)

2. Reconciliation of Suspense Account Balances. Suspense account
balances require extensive reconciliations to ensure that the accounts
are used properly, supported by adequate documentation, cleared in a
timely manner, and are in agreement with Treasury balances.
Transactions residing in suspense accounts can conceal problem
disbursements and fraud. (Identified: FY 97. Resolutions Target:
FY 00.)

3. Interface Between Contract Payment and Accounting Systems
(Negative Unliquidated Obligations (NULO) and Unmatched
Disbursements). Both negative unliquidated obligations and unmatched
disbursements are evidence of the same type of weakness: the presence
of error conditions in the interface between systems and accounting
systems. In DOD, payment operations for the most part are distinct from
accounting, even when the payment operations are a component of the
same accounting and finance office. Differences between payment
systems and accounting systems are not revealed until payments are
improperly recorded in the accounting systems. Large out-of-balances
exist in undistributed disbursement and collection accounts and in
unliquidated obligation accounts. The capabilities of the accounting
systems don't permit the research of unmatched document numbers.
Personnel performing reviews aren’t adequately trained, and review-
sampling methods are inadequate. (Identified: FY 90. Resolution
Target: FY 02.)

4. Inadequate Systems Interface Between Computerized Accounts
Payable System (CAPS) and Standard Army Finance System
Redesign (SRD-1). The ASCII file used to update SRD-1 with accounts
payable payment information can be changed. The file is unprotected
and can be accessed by anyone who can read and/or change an ASCII
file. As a result, any individual with access to the file can alter the
information. Also, the Computerized Accounts Payable System does not
have the capability to restrict access to the “remit to” address file for
associates computing vendor payments. The lack of internal controls,
edit checks, and audit trail in the Accounts Payable System has the
potential for fraud and the misuse of government funds. (Identified:
FY 98. Resolution Target: FY 00.)

5. Problem Disbursements. The Defense Finance and Accounting
Service-Indianapolis Center is working with DOD agencies to fully
identify and resolve problem disbursements. Problem disbursements are
composed of two primary categories: unmatched disbursements and
Army's General Fund Principal Financial Statements for Fiscal Year 1999 (AA 00-168)      Page 127
                                                                                      ANNEX B


negative unliquidated obligations. Unmatched disbursements are
disbursements that accounting stations cannot match to obligations in
the accounting records. A negative unliquidated obligation is a
disbursement that exceeds the value of the matching detail obligation.
Primary causes of problem disbursements relate to the lack of integration
between the entitlement systems and the accounting systems. In-transit
problem disbursements are a separate category of disbursements that
have been registered to the U.S. Treasury and charged to an
appropriation, but not yet distributed to an accounting station. The
occurrence of problem disbursements distorts fund availability.
(Identified: FY 96. Resolution Target: FY 03.)

6. Fragmented and Incomplete Defense Joint Military Pay System
(DJMS) Requirements and System Specifications Documentation.
Comprehensive sets of requirements, business rules, and systems
documentation doesn't exist for either the Active or Reserve Components
of the system. Some documentation is maintained only in functional
work areas and some is maintained in the programmer/analyst work
areas. Not all existing information is current. Failure to have
documented systems severely impairs and adversely impacts the primary
mission of hosting and modifying military pay software with acceptable
degrees of confidence and reliability. (Identified: FY 99. Resolution
Target: FY 02.)

7. Fund Balances with Treasury. Appropriation balances recorded in
the accounting records do not balance to the fund balances with the
Treasury. (Identified: FY 99. Resolution Target: FY 01.)

8. Access Deficiency to Departmental Accounting Files. Personnel
at operating locations and other outside activities have access to the
Departmental Accounting Budget Execution database. Users have
access to any record in the database. The Headquarters Accounting and
Reporting System (HQARS) experienced data loss during FY 99 due to
the high number of users accessing the database. (Identified: FY 99.
Resolution Target: FY 01.)




Army's General Fund Principal Financial Statements for Fiscal Year 1999 (AA 00-168)      Page 128
                                                                                      ANNEX C


                           SUPPORTING AUDIT REPORTS

1.      Financial Reporting of Wholesale Munitions (to be published)

2.      Financial Reporting of Budgetary Resources (to be published)

3.      Financial Reporting of Liabilities (to be published)

4.      Financial Reporting of Army General Equipment (to be published)

5.      Financial Reporting of Construction in Progress (to be published)

6.      Financial Reporting of Real Property (to be published)

7.      Audit of the Compilation of the Army’s FY 99 Financial Statements
        at the Defense Finance and Accounting Service–Indianapolis Center
        (Inspector General, DOD, Project Number 0FI-2116)




Army's General Fund Principal Financial Statements for Fiscal Year 1999 (AA 00-168)      Page 129
                                                                                      ANNEX D


         OTHERS RECEIVING COPIES OF THE REPORT

Chief of Staff, Army
Under Secretary of the Army
Vice Chief of Staff
Assistant Secretary of the Army (Civil Works)
Assistant Secretary of the Army (Financial Management and Comptroller)
Assistant Secretary of the Army (Installations and Environment)
Assistant Secretary of the Army (Manpower and Reserve Affairs)
Assistant Secretary of the Army (Acquisition, Logistics and Technology)
General Counsel
Director of the Army Staff
The Inspector General
Chief of Legislative Liaison
Chief of Public Affairs
Chairman, Army Reserve Forces Policy Committee
Deputy Chief of Staff for Logistics
Deputy Chief of Staff for Operations and Plans
Deputy Chief of Staff for Personnel
Assistant Chief of Staff for Installation Management
Chief, National Guard Bureau
Deputy Assistant Secretary of the Army for Budget
Director, Program Analysis and Evaluation
Commanding General, U.S. Army, Europe and Seventh Army
Commanders
  U.S. Army Forces Command
  U.S. Army Training and Doctrine Command
  U.S. Army Materiel Command
  U.S. Army, Pacific
  U.S. Army Military District of Washington
  U.S. Army Corps of Engineers
  U.S. Army Criminal Investigation Command
  U.S. Total Army Personnel Command
  U.S. Army Aviation and Missile Command
  U.S. Army Communications-Electronics Command
  U.S. Army Industrial Operations Command
  U.S. Army Tank-automotive and Armaments Command
  U.S. Army Logistics Integration Agency
  U.S. Army War Reserves Support Command
  XVIII Airborne Corps and Fort Bragg
  I Corps and Fort Lewis
  3d MP Group, USACIDC
  6th MP Group, USACIDC




Army's General Fund Principal Financial Statements for Fiscal Year 1999 (AA 00-168)      Page 130
                                                                                      ANNEX D


Executive Director, U.S. Army Materiel Command Logistics Support
  Activity
Directors
  Armament and Chemical Acquisition and Logistics Activity
  U.S. Army Research Laboratory
  U.S. Army Center for Public Works
Commandant, U.S. Army Logistics Management College
Director, Center for Army Lessons Learned

Inspector General, Department of Defense
Directors
  Defense Finance and Accounting Service
  Defense Finance and Accounting Service-Indianapolis Center
  Defense Finance and Accounting Service-Columbus Center
  Defense Intelligence Agency
  Defense Logistics Agency
Auditors General
  Air Force Audit Agency
  Naval Audit Service




Army's General Fund Principal Financial Statements for Fiscal Year 1999 (AA 00-168)      Page 131
Audit Team Members

This report was prepared by the Finance and Accounting Directorate, Office of the
Assistant Inspector General for Auditing, DoD.

F. Jay Lane
Salvatore D. Guli
Richard B. Bird
Jack L. Armstrong
Paul C. Wenzel
Lee M. Carter
Susanne B. Allen
